AUDIT OF THE TREN URBANO RAIL
       TRANSIT PROJECT
      Federal Transit Administration

      Report Number: MH-2004-098
     Date Issued: September 29, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Follow-Up Audit of the               Date:    September 29, 2004
           Tren Urbano Rail Transit Project
           Federal Transit Administration
           MH-2004-098

  From:    Alexis M. Stefani                                       Reply to
                                                                   Attn. of:   JA-40
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Transit Administrator



           This report presents the results of our third audit of the Tren Urbano Rail Transit
           Project (Tren Urbano) in San Juan, Puerto Rico. We are providing our findings
           and recommendations to the Federal Transit Administration (FTA), so it may
           resolve the issues identified in this report before making further Federal funding
           decisions concerning Tren Urbano.

           Tren Urbano is being constructed by the Puerto Rico Highway and Transportation
           Authority (PRHTA). It is a 10.7-mile (17.2 km) fixed-guideway rail transit
           system that will serve existing and projected development within San Juan’s
           metropolitan area. Tren Urbano will include 16 stations, a vehicle maintenance
           and storage facility, 74 rail cars, operations control center, traction power, train
           control, and communications systems. The project is expected to provide a
           solution to the continually rising vehicle traffic levels and bring a new mode of
           transportation to the most congested sections of the San Juan metropolitan area.
           Since 1990, the number of registered vehicles in Puerto Rico has increased at an
           average annual rate of 2.89 percent; this is 2.13 percent more than the population
           growth rate.
                                                                                                                  2


In May 2003, PRHTA applied for an amendment to its full funding grant
agreement (FFGA)1 to increase the project cost estimate from $1.65 billion to
$2.25 billion, add $120 million in Federal highway flex and FTA formula funds to
help finance the cost increase,2 and extend the project completion date to June
2004. Table 1 shows historical cost, funding, and schedule estimates for the
project. As of June 30, 2004, PRHTA had incurred $2.1 billion of the
$2.25 billion in estimated project costs, of which FTA has paid $599.4 million. In
addition, in a letter dated June 24, 2004, PRHTA requested that the June 2004
completion date proposed in the FFGA amendment application be extended to
December 31, 2004.
                                           Table 1
 Historical Cost, Funding, and Schedule Estimates for the Tren Urbano Rail Transit Project
                                       ($ in millionsa)
                                  March 1996            July 1999          May 2003
                                     Grant           Amended Grant    Proposed Amended
                                   Agreement            Agreement      Grant Agreement
Cost                                $1,250.3             $1,653.6b           $2,250.0c
Federal Funding
5309 New Starts                       $307.4               $307.4b             $307.4c
5309 Capital Funds                      $0.0                  $0.0b               $5.0c
                                                                   b
5307 Formula                            $0.0               $141.0              $181.0c
                                                                   b
Federal High Flex Funds                 $0.0               $259.9              $339.9c
                                                                  d
Subtotal Federal                      $307.4               $708.3              $833.3c
Local Funding                         $942.9               $945.3b           $1,416.7e
                                                                   b
Total Funding                       $1,250.3             $1,653.6             $2,250.0
Scheduled Project Completion
(Revenue Operation Date)                    July 1, 2001           May 31, 2002               June 30, 2004f
Source: The March 13, 1996 full funding grant agreement; July 19, 1999 amended grant agreement; and May 2003
        amended grant application.
a
  Totals may not add due to rounding.
b
  Of this amount, $257.9 million has been appropriated.
c
  PRHTA received $4.96 million (rounded to $5.0 million) in Section 5309 capital funds in FY 1995 that were outside
  the original scope of the FFGA.
d
  As of August 11, 2004, FTA had paid PRHTA $599.4 million in Federal funds.
e
  PRHTA included $17.06 million in local funds spent prior to FTA’s award of the FFGA in 1996.
f
  PRHTA requested this date be changed to December 31, 2004 in a June 24, 2004 letter to FTA.



In our March 2002 audit, we recommended that FTA neither amend the project’s
FFGA nor accept the updated Finance Plan until PRHTA submits a realistic
project schedule, cost estimate, and timetable to resolve significant construction
quality problems. Because some of these issues are still outstanding, FTA has not
accepted PRHTA’s Finance Plan or approved its application for amending the

1
    A full funding grant agreement is the instrument by which FTA awards Federal assistance to a specific grantee to
    support a particular project. The agreement establishes specific parameters of the project and may include other
    special conditions, requirements, or provisions.
2
    The remainder of the increase will be financed with local funds.
                                                                                   3


FFGA. For the current audit, we determined whether (1) Tren Urbano’s schedule
was achievable, (2) Tren Urbano’s cost estimate was reliable, (3) PRHTA has the
financial capacity to complete Tren Urbano, and (4) Tren Urbano’s outstanding
construction quality problems have been corrected. (See Exhibit A for a summary
of our objectives, scope, and methodology and Exhibit B for prior audit coverage.)

RESULTS IN BRIEF
Tren Urbano has been plagued           Tren Urbano’s History of Cost Increases
with rising costs, schedule                         and Schedule Delays
slippages, and construction                                          Proposed Project
quality     problems      since          Estimated Project Cost      Completion Date
construction began in 1996.       • March 1996--$1.25 Billion       July 2001
These problems continue to • July 1999--$1.65 Billion               May 2002
prevent the system from • December 2001--$2.036 Billion             September 2003
opening for passenger service. • May 2003--$2.25 Billion            June 2004
Tren Urbano was originally • Current--$2.25 Billion                 December 20043
estimated to open in July
2001, at a cost of $1.25 billion. However, the completion date has been extended
over 3 years to December 2004, and the price tag has almost doubled to
$2.25 billion. According to FTA, 40 percent of the cost growth is due to scope
changes, such as the addition of rail vehicles and two stations, and other
refinements. The remaining 60 percent is due to rising costs, schedule slippages,
and construction quality problems. The reliability of the current cost estimate is
questionable, however, given the likelihood of future claims and additional costs
that may be incurred to resolve outstanding safety and performance issues.

Safety and Performance Issues Need to be Resolved
Although the project is nearing completion, safety- and performance-related issues
continue to delay the project opening. With 93 percent of the budget expended,
PRHTA has identified 241 safety and performance issues that must be resolved.
As of July 2004, PRHTA and FTA’s project management oversight consultant
(PMOC) recognized 77 of these issues as safety-critical and PRHTA submitted a
plan to FTA for resolving issues. However, the plan did not identify actions or
establish time frames to address all safety-critical issues before the start of
passenger service. FTA stated in its response to our report that PRHTA has
disposed of 7 of the 77 safety-critical issues and it will require PRHTA to provide
a timetable for completing the safety and performance issues.

One safety critical issue that PRHTA identified in its reports involves traction
power. PRHTA stated that the 750-volt direct current, traction power cables

3
    FTA’s project management oversight consultant forecasts a January 2005 date.
                                                                                                                     4


located throughout the project’s elevated guideway were installed without
protection that is specified in the contract and the National Electric Code. Without
protection, the normal movement of energized power cables against coarse
concrete surfaces can degrade the insulation and cause short circuits or explosions.

In addition, proper headways are not being maintained between trains, which will
have a direct and significant effect on performance.4 Based on Siemens’5
March 2004 test (which was the most current at the time of our audit), 6-car trains
achieved only 8-minute headways during scheduled peak periods instead of the 2-
minute headways required by the Siemens’ contract with PRHTA. Two-car trains
also failed to maintain 5-minute headways without skipping stations. With time
separation between trains of 8 and 5 minutes, PRHTA will not be able to transport
as many riders because trains will be less frequent. The system may be safe with
greater time periods between trains, but performance would greatly suffer. In its
response to our report, FTA stated that an August 2004 system demonstration test,
which has not yet been accepted by PRHTA, achieved 5- and 4-minute sustained
headways.
Over the past 8 months, there have been conflicting reports regarding the status of
safety and performance issues, making it difficult to determine when the system
will open. At FTA’s suggestion, PRHTA recently arranged to have Washington
Metropolitan Area Transit Authority (WMATA) perform a “peer review” of the
track system and New York City Transit to review the automatic train control
system in order to further assess the performance and safety issues. WMATA
stated that these construction deficiencies are significant because they will
ultimately affect passenger safety if not monitored closely and would immediately
require additional inspection, maintenance, and repair. New York City Transit’s
review has recently been completed and the results are being assessed by PRHTA
and FTA.
FTA has issued letters to PRHTA stating it is not acceptable to open Tren Urbano
for passenger service before the safety-critical and performance issues are resolved
and the system is safety-certified by Puerto Rico’s state safety oversight agency.
We agree. Furthermore, at FTA’s request, its PMOC is closely monitoring
PRHTA’s progress in this area. The PMOC will need to also ensure that
performance and safety are not individually sacrificed to achieve the other. For
example, train speeds should not be reduced to meet safety requirements nor
should it be increased unsafely to meet the headway requirements. FTA will need
to ensure that all safety requirements are met and the level of performance that


4
    Headways are the time separation between trains.
5
    The full name of the contractor is Siemens Transportation Partnership Puerto Rico S. E. and is the Systems and Test
    Track Turnkey contractor.
                                                                                                                       5


justified Federal participation in the project is achieved before FTA approves any
FFGA amendment.

Change Orders Are Not Properly Supported
PRHTA executed and/or paid change orders that were not properly supported. Of
the 759 contract change orders that were executed from calendar years (CY)
1997 through 2004, we found 377 were irregular, which suggests that
overpayments to contractors may have occurred. These 377 change orders added
$226.5 million to the cost of the project. Specifically, we found three types of
irregularities in PRHTA’s processing of the 377 change orders: (1) 207 change
orders valued at $186.1 million were executed without PRHTA first obtaining a
fair cost estimate,6 which is required by FTA Circular 44207; (2) 167 change
orders were executed for well over their fair cost estimates, and in some cases by
as much as 500 to 2,189 percent8; and (3) 8 change orders were executed for
accelerating construction9 even though FTA’s PMOC warned PRHTA before the
acceleration change orders were executed that the dates were not achievable. (The
acceleration dates were not met and the project has now entered into a protracted
claims process with one of the contractors.) The majority of these irregular
change orders occurred under the previous Tren Urbano project leadership, but the
current leadership will have to address these issues.

Since 2000, FTA has made repeated requests for PRHTA to maintain and provide
documentation supporting its change orders. PRHTA has shown a flagrant
disregard for FTA’s requests, and FTA has withheld approval of Federal funds
until PRHTA provides the necessary information. In September 2003, FTA
informed PRHTA that all current and proposed FFGA funding was suspended
until the PMOC completed a review of the change orders and the issues were
resolved.

In November 2003, FTA’s PMOC completed its review of 167 change orders and
FTA declared 52 change orders, valued at $130 million, to be ineligible for
Federal funds because supporting documentation was missing to accurately
validate the reasonableness of the contractors’ proposals and the value of the work
performed. Approximately 10 months from FTA’s latest request and funding


6
    Fair cost estimates are independent assessments of the value of work to be performed and are used to determine the
    reasonableness of contractor proposals.
7
    FTA Circular 4220, “Third Party Contracting,” requires that a cost analysis or fair cost estimate be prepared on every
    change order. A fair cost estimate is a detailed estimate of the lowest reasonable cost relative to the contractor’s
    actual working conditions.
8
    The 167 change orders were settled for amounts 15 percent above the fair cost estimate. The amount paid above 15
    percent of the fair cost estimate totaled $15.3 million.
9
    To avoid double counting in our analyses, five of these change orders have no fair cost estimate and the associated
    amounts have been included in the 207.
                                                                                                                       6


suspension, PRHTA has yet to provide the necessary documentation to FTA for
the 52 questioned change orders.
Further, based on the lack of supporting documentation, it is uncertain what the
level of Federal participation has been in the 377 irregular change orders. FTA’s
PMOC is working with PRHTA to determine which change orders received
Federal reimbursement. In our opinion, no Federal funds should be provided to
PRHTA for any of the irregular change orders, as PRHTA has been unable to
provide the necessary documentation to prove that funds were used appropriately.

FTA should direct PRHTA to provide a full accounting of billings submitted and
reimbursements made to ensure that only valid billings and reimbursements were
processed. Furthermore, because PRHTA has not complied with the FFGA
requirement to obtain fair cost estimates, FTA should not award any additional
Federal Highway flex and FTA formula funds for this project until it approves and
signs an amendment to the Full Funding Grant Agreement, and FTA determines
that PRHTA has provided adequate documentation to demonstrate that the project
expenses to which the funds would apply are eligible for Federal reimbursement.10

PRHTA’s May 2003 Finance Plan Did Not Properly Reflect
Expenses and Revenue
Unlike other transit authorities, PRHTA manages highways as well as Puerto
Rico’s one rail transit project. As a result, PRHTA’s Finance Plan submited to
FTA supporting its FFGA proposed amendment is an agency-wide plan and must
reflect its ability to construct, operate, and maintain all of its highway projects as
well as Tren Urbano. The Finance Plan, as a whole, consists of $21 billion in
revenues and costs associated with its highways and transit projects (there is only
one transit project) that is projected over a 20-year period, as required by FTA11.
In its Fiscal Year (FY) 2003 Finance Plan, which was the most current plan
submitted at the time of this audit, PRHTA did not adequately reflect certain costs
and included revenue that, at this time, is questionable.

Our review of the FY 2003 Finance Plan disclosed three areas where costs were
understated and revenue was questionable. First, we found that the Finance Plan
omitted significant future costs. For example, the cost of the bus feeder system to
selected rail stations of about $1.269 billion was omitted. Second, capitalized
expenditures related to all of PRHTA (not just Tren Urbano) was understated by
$378 million as a result of assuming an equivalent annual inflation rate of less than
10
      49 C.F.R. §18.43, “Enforcement,” states that “if a grantee or subgrantee materially fails to comply with any term of
     an award, whether stated in a Federal statute or regulation…or elsewhere, the awarding agency may…withhold
     further awards for the program.”
11
     The FTA required Finance Plan for transit agencies seeking an FFGA or an amendment to an FFGA, including
     PRHTA, incorporates the same elements as a statewide transportation improvement program (STIP). However, it
     covers 20 years for capital projects versus Puerto Rico’s normal 5-year STIP.
                                                                                  7


a quarter percent. Third, future revenues of $318 million from FY 2008 through
FY 2022 from a petroleum tax are uncertain as it would require a tax law change
that has not been enacted. In its response to our report, FTA stated that PRHTA
has submitted a FY 2004 Finance Plan, which is under review. In addition, it will
not approve this new plan until it appropriately reflects all Tren Urbano capital
and operating costs, PRHTA expenditures, and revenue sources.

PRHTA’s costs may grow even larger, as the project’s construction cost will likely
increase. For example, the current $2.25 billion cost estimate originally was based
on a June 2004 project completion date. However, the project completion date
was extended to December 2004, and it is uncertain how this new completion date
will affect the project’s cost. It is also uncertain what additional costs will be
incurred to resolve the outstanding safety and performance issues. Finally, the
project’s contingency reserve of $50 million (as of May 2004) for offsetting future
unknown costs will not be sufficient based on the unresolved construction quality
issues and additional claims that may be filed by the project’s contractors.

FTA Needs to Designate PRHTA a “High-Risk” Grantee
We believe that FTA should designate PRHTA a “high-risk” grantee under C.F.R.
49 §18.12. Under these regulations, a grantee may be considered “high-risk” if an
awarding agency determines that a grantee has a history of unsatisfactory
performance, is not financially stable, or has not conformed to the terms and
conditions of previous awards. As a result, the awarding agency can apply special
conditions and restrictions to future grants that correspond to the high-risk issue.
Because of the issues we have identified in this report, we believe PRHTA should
be designated “high-risk” and FTA should lay out specific conditions for receipts
of future grants, such as establishing prior approvals for expenditures and
requiring additional and more detailed, timely financial reports. This will ensure
that PRHTA exercises greater accountability over Federal funds received.

In its response to our report, FTA agreed with our recommendation.
Consequently, FTA stated it will officially notify PRHTA of this designation and
will lay out specific conditions that PRHTA must follow.

Summary of Recommendations
Given the history of cost overruns and construction quality issues on this project,
FTA should continue to provide increased oversight of PRHTA’s resolution of
issues discussed in this report. Of extreme importance is the need to ensure that
the system is safe before it opens for passenger service and that system
performance levels are achieved to deliver the promised ridership. In addition,
FTA should request that PRHTA provide a full accounting of the payment
transactions on the irregular change orders.
                                                                                                                         8


Further, since the system’s safety and performance problems have affected the
project’s cost and schedule, FTA must ensure that PRHTA resolves these
problems before it considers approval of PRHTA’s FFGA amendment application.
In addition, FTA should not approve any Finance Plan until it is assured that the
plan appropriately reflects all Tren Urbano capital and operating costs, PRHTA
expenditures, and revenue sources. Finally, because of the issues we identified in
our report, FTA should designate PRHTA a “high-risk” grantee and require
special conditions that PRHTA must follow in order to receive future grants.
Although these safety, performance, and contract issues have not been fully
resolved, PRHTA has requested a release of $59 million of remaining New Starts
funds that has been appropriated to offset an expected cash flow shortfall. FTA is
considering the release of the $59 million that has already been appropriated, but
would do so only under certain conditions including limiting the use of the funds
to expenses that its PMOC has already identified as reasonable and valid, and for
which PRHTA has not been previously reimbursed.

During September, FTA discussed and provided comments to our office on the
draft report. In its written comments (see attached), FTA generally agreed with
the findings and recommendations, and stated it would continue to closely oversee
the project. Further, FTA stated that it will not permit the system to open until all
the safety-critical issues are addressed.

RESULTS

Safety and Performance Issues Continue and Need To Be
Addressed
FTA’s rail transit safety and security program requires that Tren Urbano be
certified by a state safety oversight agency.12 However, as of July 2004, none of
the project’s nine systems had been safety-certified. Siemens is responsible for all
nine systems, which include vehicles, automatic train control, communications,
operations control center, power distribution and traction power, track, elevators
and escalators, signage and graphics, and fare collection.13 (See Exhibit C for an
overview of Siemens’ contract responsibilities.)
As of July 7, 2004, PRHTA had identified 241 non-conformance reports involving
system safety or performance issues. “Non-conformance reports” are reports of
contractor non-compliance with contractually-specified requirements that must be
resolved before the contract terms can be considered fulfilled. PRHTA classified

12
   49 C.F.R. Part 659, “Rail Fixed Guideway; State Safety Oversight,” requires that all elements critical to safety be
   tested and in compliance with the transit agency’s safety requirements.
13
   Fare collection has to be safety-certified to ensure easy evacuation of the station in case of an emergency such as fire.
                                                                                                                    9


77 of the 241 non-conformance reports as safety-critical, and in its opinion all
should be addressed before starting passenger service. Of the 77 safety-critical
non-conformance reports, 9 involve traction power and other high voltage cables,
7 relate to the automatic train control system, 33 involve track work, and 28 relate
to other aspects of the 9 systems.14 FTA’s PMOC stated that resolving track and
traction power non-conformance reports is the critical path to system start-up, and
has requested PRHTA to develop a summary report (updated once a month) to
assist in tracking the resolution of these outstanding non-conformance reports.
Examples of the major systems’ safety and performance issues involving traction
power, automatic train control, and the track system are described below.

Traction Power and Other Cables Were Unprotected
Throughout the project’s elevated guideway, 750-volt direct current, traction
power cables connected to the third rail were installed without protection from
chafing against the sharp edges of the coarse concrete guideway structures and
steel straps. Without protection, the normal movement of energized power cables
can degrade the insulation and cause short circuits or explosions. Figure 1 shows
750-volt direct current, traction power feeder cables bolted to the third rail and in
contact with the coarse concrete rail right-of-way.
                                                    Figure 1.
       Unprotected 750-volt traction power cables bolted to contact rail.
                                                              Grounding cables in contact with the concrete.




            Source: Photograph taken by the Office of Inspector General (OIG) Engineer May 11, 2004.


In some cases, unprotected traction feeder cables were co-located with unprotected
track grounding, nearby communication, and other cables, as shown in Figures 2
and 3. Siemens’ contract requires that it will comply with the National Electric
Code, which directs that communications conductors not be placed near electrical
power connectors to prevent damaged power cables from damaging other
co-located cables. In advance of receiving PRHTA approval, Siemens began
placing 750-volt direct current, traction power feeder cables within plastic cable

14
     These 28 relate to station areas, the maintenance shop, operations control center, communication, and supervisory
     control and data acquisition systems that remotely monitor and control power substations.
                                                                                                                  10


troughs to provide greater protection from insulation degradation. There is no
stated completion date for this activity.
                                                    Figure 2.
              750-volt traction power co-located with track grounding cables




     Source: Photograph taken by OIG engineer on January 15, 2004.



                                                    Figure 3.
                                  750-volt direct current traction power cables co-located with fiber optic cables




     Source: Photograph taken by OIG engineer on January 15, 2004.

Automatic Train Control Continues to Show Problems
According to FTA’s PMOC, Tren Urbano’s automatic train control system, which
maintains appropriate time separations between trains and monitors their location,
continues to show problems. PRHTA officials state that the automatic train
control system does not meet contractually-specified standards of the American
Association of Railroads.15 Critical system components of this automatic system,
such as the relay that applies the brakes and the circuit board that controls the
track switches, could compromise the ability of trains to brake properly, switch
tracks, and maintain appropriate time separations between trains. FTA’s PMOC

15
     The American Association of Railroads developed and published design criteria, specifications, and test standards
     for rail signal systems.
                                                                                                              11


noted in its May and June 2004 monthly reports to FTA that Tren Urbano’s
automatic train control system has not reached the contractually required level of
reliability. Based on our review of the PMOC’s monthly reports and PRHTA’s
quality assurance reports, we found the following:

       • Emergency braking incidents are exceeding the permitted incident
            rate. Emergency braking incidents for Tren Urbano are contractually
            required not to exceed one incident for every 419 hours of train operations.
            However, during 12,400 train test hours recorded from October 14, 2003
            until June 21, 2004, the automatic train control system experienced
            1,566 emergency brake applications, or an average of 1 emergency brake
            application for every 8 hours of train operations. Within the first 21 days of
            June 2004, emergency brake occurrences still continue to greatly exceed the
            specified, minimum permitted incident rate. This excessive braking has
            caused severe damage to the train’s wheels and has shortened the useful life
            of brake pads, as well as reduced the number of rail cars available to
            operate at a given time.

       • Proper headways are not being maintained. The automatic train control
            system maintains safe time separations or headways between trains. This
            function is also a key performance element of the project, which could
            affect the achievement of the project’s future ridership goals. During
            Siemens’ latest recorded test of the rail system held in March 2004, the
            project failed to meet the contractually specified 2-minute headways with
            6-car trains. For example, trains operated between 5:00 a.m. and
            10:00 p.m. achieved only 8-minute headways during scheduled peak
            periods. Two-car trains also failed to maintain 5-minute headways without
            skipping stations. At this current time separation between trains of 8 and 5
            minutes, PRHTA will not be able to transport as many riders because trains
            will be less frequent.
            As indicated in our April 2004 testimony,16 ridership is the single most
            critical element supporting project justification. It is crucial to determining
            project-related benefits, such as mobility improvements and congestion
            relief. These benefits will fall short if ridership estimates are not materially
            attained. Therefore, Tren Urbano must achieve its ridership forecast to
            fully realize the intended benefits of congestion relief.
FTA will need to ensure that the contractually-required levels of performance are
achieved. Otherwise, it will not deliver the user benefits that justified the Federal
investment in the system.


16
     OIG Testimony Number CC-2004-021, “The Rating and Evaluation of New Starts Transit Systems,” April 28, 2004.
                                                                                                                      12



The Track System Was Not Properly Installed
Another issue requiring resolution involves the track system (specifically, the
direct-fixation track system, as it is known in the industry). This system, which
secures the rails directly to the elevated and tunnel sections of the guideway, was
not properly installed. The system includes tracks, track plates, steel clips, anchor
bolts, and reinforced concrete pads. Throughout the elevated and tunnel segments
of the alignment, PRHTA and FTA’s PMOC found that anchor bolts used to safely
secure track plates to the concrete pads were corroded, not tightened to
specifications, installed on uneven, reinforced concrete guideway pads, and
secured by inadequate epoxy. These deficiencies can cause the tracks to dislodge.
For example, contract specifications require anchor bolts to be torqued (fastened)
to a specified strength; however, numerous bolts had either insufficient or
excessive torque.
FTA’s PMOC reported that the major track-related non-conformance report issues
included excessive shimming of rail fasteners and damaged or broken contact rail
components. In recognizing PRHTA’s lack of experience as rail transit system
operators and maintainers, FTA suggested that PRHTA seek technical advice from
experienced United States rail transit system experts. Subsequently, FTA’s
PMOC encouraged PRHTA to obtain a peer review of the system.17 Therefore,
PRHTA invited WMATA track and structural experts to conduct a technical
assessment of repair work on four track system areas that Siemens reported to be
near completion. In mid-June 2004, the WMATA team found deficiencies in
repairs that Siemens had completed throughout the system in the following areas.

       • Track switching deficiencies. Structures located under track intersections
            that permit trains to switch tracks (known in the industry as “frogs”) were
            not resting correctly on the concrete pads, and therefore, had excessive gaps
            that prevented the structures from properly supporting the rail. These
            structures were also bowed
            upwards, causing undue stress
            that could crack the structures or
            shear the bolts attaching the
            structures to the concrete pads.
            This condition could also cause
            significant future maintenance
            problems, such as rail warping,
            which was observed at a double
                                                                              Source: L. B. Foster Company

17
     A peer review is recognized by FTA as a structured, independent review of an organization or project by a team of
     transit experts. Typically, these reviews are limited to special topics or situations with a specified purpose, scope,
     format, and duration.
                                                                                      13


            crossover location. It can also lead to the premature loosening of applicable
            switches, alignment and gauge18 problems, deterioration of the concrete
            pads, and other unsafe conditions for future rail vehicle traffic.

       • Track plate deficiencies. WMATA observed that track plates, which keep
            the tracks safely resting on concrete supports, were not leveled or properly
            placed. This improper placement causes high stress on portions of the
            plates, which could deform and ultimately break the track plates. Similarly,
            the WMATA team observed that other track plates were unevenly fastened,
            and a number of steel clips that secure the rails to the track plates were
            charred by fire exposure, which may have reduced the strength of those
            clips. Improperly installed or loosened track plates and steel clips of
            questionable structural integrity pose future problems because these
            deficiencies impair the track system from keeping the rails permanently
            fixed to safely support the travel of rail vehicles.

       • Rail deficiencies. Rail misalignments and uneven elevations have caused
            unnecessary switch wear and damage to the third rail that supplies power to
            the rail. WMATA observed that more than half of the insulators supporting
            the third rail were cracked. It also observed rail surface defects, including
            severe corrosion and pitting from improper storage, that will require
            grinding to remove. These deficiencies will cause additional maintenance
            expenses, affect the smooth operation of rail traffic, and may pose safety
            problems, including derailments when railcars switch tracks.

According to the WMATA peer review team, these three construction deficiencies
are significant because they will affect passenger safety if not maintained more
frequently than normal and could cause additional operating and maintenance
expenses. However, WMATA reported to PRHTA that despite the track
deficiencies, trains can run safely, provided additional inspection and maintenance
is implemented.

Passenger Operations Should Not Occur Before Safety-Critical
Issues Are Resolved
To remedy the safety and performance issues, PRHTA and Siemens presented
FTA with a management action plan on April 21, 2004. The plan identified and
prioritized the most critical remaining tasks to complete Tren Urbano. However,
the plan did not provide the necessary detail on the work to complete all of the
critical tasks or a schedule to remedy the safety-critical, non-conforming reports.
Having a detailed work plan and corresponding time frames is a critical step
before the system can open for revenue operations. Without a detailed plan that

18
     Gauge is the distance between the inside face of the two rails of a track.
                                                                                                                      14


clearly lays out the critical path to resolving the safety and performance issues, it
is unclear when revenue operations will begin. Regardless, PRHTA has now set
that date as December 2004.

Although many safety-critical, non-conformance reports remain outstanding,
PRHTA has made multiple announcements of Tren Urbano’s opening for
passenger operations. As a result of these announcements, FTA issued letters on
April 29, 2004 and May 14, 2004 notifying PRHTA that providing transportation
to the public was not acceptable before completing the safety certification process.
FTA’s actions are important first steps, but it should continue to withhold approval
of the FFGA amendment until PRHTA resolves all outstanding safety-critical,
non-conformance reports to FTA’s satisfaction.

Recent problems with other train systems illustrate the importance of ensuring that
system start-up does not occur before safety-critical items are resolved. For
example, in September 2003, a Seattle Sound Transit train derailed on a section of
commuter rail tracks, which was opened prematurely by the Central Puget Sound
Regional Transit Authority.


Change Orders Were Not Properly Supported or Justified Before
Payment
Since the start of the project, PRHTA has executed 759 change orders to add,
delete, or otherwise amend construction work, increasing costs by $471.4 million.
Our review disclosed that 377 of the 759 change orders, valued at $226.5 million,
were either executed and/or paid by PRHTA without a fair cost estimate, well in
excess of the fair cost estimate, or for unearned acceleration fees.19 FTA has its
PMOC determining the extent to which FTA may have participated in the
payments of these change orders.

Change Orders Were Paid Without Fair Cost Estimates
Of the 759 executed change orders, 207 (27 percent) valued at $186.1 million
were processed without fair cost estimates from CYs 1997 to 2004. Fair cost
estimates (independent assessments of the value of work to be performed) are
required by FTA, under the terms of FTA Circular 4220.1E, to determine the
reasonableness of contractor proposals. However, PRHTA executed change

19
     FTA follows Government acquisition regulations, which require that fair cost estimates be obtained before execution
     of a contract or change order to determine the reasonableness of the contractor’s proposal. The rationale for this
     requirement is based on the Federal Acquisition Regulation which states that the “reasonableness of specific costs
     must be examined with particular care in connection with firms or their separate divisions that may not be subject to
     effective competitive restraints. No presumption of reasonableness shall be attached to the incurrence of costs by a
     contractor.” Such is the case at Tren Urbano because change order request and contractor price quotes are, in effect,
     not competitive and should not be presumed to be reasonable on their face.
                                                                                                                 15


orders without independent cost assessments. For example, a June 2002 change
order to redesign and relocate utilities for the Hato Rey contract had a contractor-
proposed value of $281,162 and was settled for $888,000.20 Without a fair cost
estimate, it is unclear whether the settlement was excessive and the contactor’s
proposed price was reasonable. Therefore, FTA should not fund change orders
that have been executed without independent assessments of the value of the work
to be performed.

On five occasions between December 2001 and August 2003, FTA’s PMOC
reported a lack of supporting documentation for processing Tren Urbano change
orders and recommended to FTA that PRHTA provide the necessary support for
its change orders.21 In response to these recommendations, FTA requested several
times throughout the 2-year period that PRHTA provide the necessary support and
follow its documentation procedures. Despite these requests from FTA, the
number of change orders lacking supporting documentation continued to increase
during this period. As a result, FTA periodically withheld funds from PRHTA.

In August 2003, after reviewing FTA’s PMOC reports and analyzing the project’s
change order logs, we questioned FTA concerning the disposition of its PMOC’s
findings and recommendations made in the five reports and the response from
PRHTA. We were told that PRHTA had not responded to the PMOC’s
recommendations and the May 2003 FFGA amendment would not be processed
by FTA until all outstanding change order issues were resolved.

In September 2003, FTA again directed its PMOC to conduct a more extensive
review of the change order records to determine whether certain change orders
should be deemed ineligible for Federal participation. FTA also informed PRHTA
that all current and proposed FFGA funding was suspended until the PMOC
completed its review and the issues were resolved. FTA indicated in its
September 2003 letter to PRHTA that there was a “pattern of unresponsiveness
and delay regarding FTA’s recommendations.”

In November 2003, FTA’s PMOC completed a review of 167 (22 percent) of the
759 change orders with the largest dollar values and found that 52 lacked
independent fair cost estimates. These 52 are part of the 207 change orders that
we identified as lacking fair cost estimates. As a result of its PMOC’s review, in
December 2003 FTA declared the 52 change orders as ineligible for funding. FTA
also cited its intent to reduce the amount of Federal funds promised in the
amended FFGA by approximately $48 million, unless PRHTA provides

20
   Hato Rey is one of the seven alignment section contracts to construct Tren Urbano. See Exhibit C for a description
   of the contract.
21
   “PMOC Spot Report 35,” December 2001, “PMOC Spot Report 44,” January 2003, “PMOC Spot Report 44A,”
   April 2003, “PMOC Spot Report 44B,” July 2003, and “PMOC Spot Report 44C,” August 2003.
                                                                                  16


reasonable support showing that the 52 change orders are reasonably priced. To
date, FTA has not reduced PRHTA’s funding. However, as FTA’s PMOC stated
in its July 2003 report, it would be of no value to recreate the fair cost estimates.
Because FTA’s policy clearly requires fair cost estimates to support contract
modifications, these change orders should be ineligible for Federal reimbursement.

Change Orders Were Settled for Well Over Their Fair Cost Estimates
Our analysis of the change order log showed that 167 change orders (of 552
change orders with fair cost estimates) were settled for amounts that were more
than 15 percent above, and frequently double, the value of their fair cost estimates.
In some cases, change orders were settled for as much as 500 to 2,189 percent
over their fair cost estimates. This is highly irregular as, historically, PRHTA has
settled most of its change orders on Tren Urbano for no more than 15 percent
above the fair cost estimate. Figure 1 shows the results of our analysis of change
orders for FYs 1997 through 2004.
                                                                                                    17


Figure 1. Number and Additional Cost of Change Orders Issued
           Above 15 Percent of Fair Cost Estimates
                       ($ in Millions)




 350                                                                                           $5
                                                                   $4.4

 300
                    $3.8
                                                                                               $4

 250

                                                                                               $3
 200
                                                       $2.3

 150
                                 $1.7                                                          $2
        $1.4                                $1.3
 100

                                                                                               $1
  50                                                                              $.4

       35      3   27      3   66   14    102   28   114   42   295   61    114    16   6 $0
   0                                                                                           $0
        1997        1998        1999       2000        2001       2002       2003       2004

                        Change Orders Issued
                        Change Orders > 15% of the Fair Cost Estimate
                        Additional Cost that exceeds 15% of the Fair Cost Estimate

        Source: OIG analysis of the project’s change order log as of May 7, 2004.

The amounts paid above 15 percent of the fair cost estimate totaled $15.3 million
for the 167 change orders. For example:
   • A February 19, 2002 change order for community relations in Rio Piedras
     had a fair cost estimate of $769,544, but was settled for $1,596,000.
   • Another February 19, 2002 change order for the Rio Piedras contract
     regarding an additional entrance had a fair cost estimate of $520,792 and
     was settled for $1,160,000.
   • A February 21, 2002 change order for a pedestrian canopy for the Bayamón
     contract had a fair cost estimate of $127,600 and was settled for $220,000.
                                                                                                                      18


     • A March 19, 2002 change order for foundation, site finishing work, and
       fencing for the Siemens contract had a fair cost estimate of $110,466 and
       was settled for $299,685.

To date, PRHTA has not provided an explanation for why the 167 change orders
were settled for more than 15 percent above their fair cost estimates. FTA needs to
determine whether PRHTA made excessive payments on these change orders and
the extent to which PRHTA received Federal reimbursement for them.

PRHTA Paid Acceleration Costs Even Though FTA Warned That
Dates Could Not Be Met
Eight change orders, valued at $65.9 million, were issued from May 9, 2002
through March 6, 2003 to accelerate construction. This was done to meet a
September 2003 opening date (previously set for May 2002) stipulated by an
agreement between three alignment section contractors and PRHTA.22 The
change orders were paid even though the date was not achieved. These eight
acceleration change orders included five without fair cost estimates.23

In March 2002, FTA warned PRHTA that the September 2003 date was not
achievable and concluded that a June 2004 date was more realistic. FTA’s PMOC
also advised FTA not to participate in the acceleration change orders because of
these unrealistic dates.

Despite these warnings, PRHTA paid the acceleration change orders. In February
2004, PRHTA re-examined the change orders and reduced the acceleration
amount for one contractor24 by approximately $14 million for failure to make the
acceleration milestone, leaving a revised acceleration cost for all three contracts of
approximately $51.4 million. While PRHTA is now assessing the contractor
liquidated damages, the contractor is counter-claiming with further costs.

FTA Plans to Strengthen Its Policies Concerning Unjustified Change
Orders
To reduce the likelihood that unjustified change orders are paid on this and other
projects, FTA will develop a new FFGA requirement directing grantees to develop
a recovery plan whenever total project costs exceed baseline cost estimates. FTA

22
   There are six separate sections of the Tren Urbano alignment, each with its own contractor. The project also includes
   a Systems and Test Track Turnkey contract with Siemens to design and build a seventh alignment section and to
   provide and operate rail transit cars and all track, traction power, and train control systems. The three contracts with
   acceleration change orders were the Bayamón, Hato Rey, and Systems and Test Track Turnkey contracts. See
   Exhibit C for a description of the alignment section contracts.
23
   To avoid double counting in our analyses, these five change orders have been included in the 207 change orders
   without fair cost estimates.
24
   The Siemens Systems and Test Track Turnkey contract.
                                                                                   19


will also develop a new requirement that the PMOC and FTA regional staff
thoroughly review the first change order occurring on all projects to ensure that
grantees have adequate processes in place for meeting all Government acquisition
requirements. This initial review will include determining whether there is an
adequate cost analysis on file, the change order is within the scope of the project,
and plans and procedures are in place to properly process the change orders.
While this management control will be important to ensuring the integrity of the
payment process, by itself, it will not guarantee that change orders are adequately
supported, nor will it serve as an adequate control for fraud prevention and
deterrence. FTA will need to have strong PMOC oversight that examines the
reasonableness of change orders to ensure the process is not bypassed in the
future.
Because FTA has not resolved what the level of Federal participation has been or
should be in the 377 irregular change orders, it should require PRHTA to provide
a full accounting of the billings submitted for reimbursement and the
reimbursements made to-date. This information will be critical to determining
whether FTA has reimbursed PRHTA for any irregular change orders and the
amount of funds that should be withheld if ineligible costs were reimbursed.


PRHTA’s May 2003 Finance Plan Needs Did Not Properly Reflect
Expenses and Revenue
FTA requires that the agency with the authority over the transit project provide a
description of its financial health, 20 years of projected costs and revenues, and
key assumptions used in the projections. Because PRHTA has authority over both
highway and rail transit projects, the Finance Plan that it submits to FTA covers
20 years of current and future highway and transit construction and operating
costs, including the construction costs of its sole rail transit project, Tren Urbano.
The submitted plan contained $21 billion in revenues and costs. Thus, our review
sought to determine the reasonableness of PRHTA’s 2003 Finance Plan, which
was the most recent plan submitted at the time of our audit.

In our review of the Finance Plan, we focused on risks to future revenue streams
and the reasonableness of planned costs. We identified $318 million in uncertain
revenues and a potential $1.65 billion in understated expenses. (Both of these
                                                                                                                        20


figures are quoted in 2003 present value terms.25) Our findings on the Finance
Plan are discussed below.
In addition, in our review of the project’s construction budget, we found that the
current estimated cost of $2.25 billion to complete Tren Urbano will likely
increase if the project completion date continues to slip. In particular, as of May
2004, the project’s contingency reserve was $50 million and is not adequate to
cover all existing and future claims that may be placed on this reserve.26 This
amount also does not reflect future project costs that can be expected from
unresolved construction quality issues.

PRHTA’s Finance Plan Understates Expenses by a Potential $1.65
Billion
In our examination of capitalized expenditures, we found that PRHTA had
accounted for inflation by simply adding $200,000 per year.27 For example, it
determined the amount of capitalized expenditures for 2008 by taking the figure
for 2007, $85,000,000, and increasing it to $85,200,000. This is equivalent to
assuming an annual inflation rate of less than a quarter percent. In the last
10 years, Puerto Rican inflation has never fallen below 1.33 percent, and has been
as high as 6.36 percent.28 Comparing PRHTA figures with those derived using
more realistic inflation assumptions, we estimated that PRHTA understated
capitalized expenditures for highway and transit projects by approximately $378
million in 2003 present value terms.29



25
   The following is an explanation of what is meant by “2003 present value.” In choosing between whether to pay
   $1,000 in 2003 or $1,000 in 2022, it makes more sense to pay the $1,000 in 2022. First, inflation will reduce the real
   value of the $1,000 20 years on. Second, an individual can invest the $1,000 today and keep the interest earned over
   the intervening years, or alternatively if short on cash, the individual could avoid having to borrow to pay the entire
   costs upfront. If the cost is paid in 2003 from either cash or borrowed funds, the individual is out the interest on the
   $1,000. If we could determine an amount, reduced to compensate for the inflation and interest differential between
   2003 and 2022, that an individual would be as willing to pay in 2003 as it is to pay $1,000 in 2022, that would be the
   2003 present value of the 2022 $1,000 payment. The interest rates used to derive the present values in this section
   were those from the most recent Tren Urbano bond prospectus.
26
   The purpose of the contingency is to account for a possible future event or a condition arising from presently known
   or unknown causes that cannot be precisely quantified. For example, on our audit of the Central Artery 2003
   Finance Plan, the project’s sponsors assessed the maximum amount contractors would propose for claims settlement
   and determined the amount needed in contingency to cover what it thought the amount would be.
27
   Capitalized expenditures include items such as rent, salaries, automotive costs, and telephones for all of HTA.
28
   All of the inflation rates used to calculate our results in this section were based on the Gross Domestic Product
   Deflator Series for Puerto Rico produced by the World Bank.
29
   To derive the present value, we used a more realistic inflation rate to generate the stream of expenditures to be
   discounted. The exact estimate of the understatement is sensitive to the particular inflation assumption made. We
   derived our estimates using three different inflation assumptions: (1) an average of inflation rates for the last 5 years,
   3.52 percent; (2) an average of inflation rates for the last 10 years, 3.19 percent; and (3) that inflation rates would
   continue to repeat the pattern they have followed over the last 10 years. The understatement of capitalized
   expenditures was estimated to be $460 million, $407 million and $378 million, respectively. We chose the most
   conservative estimate for this report.
                                                                                                                       21


Our examination also found that the FY 2003 Finance Plan omitted significant
future operating costs for Tren Urbano. An example of this was the omission of
the cost of the bus feeder system to selected Tren Urbano rail stations. This single
omitted cost alone could reach $1.269 billion in 2003 present value terms.30
Further, the operating cost estimate excludes various expenses that have yet to be
quantified, such as subsidies for publicos (low-cost taxis), fire emergencies, other
emergency services, and security. These costs need to be quantified and addressed
in the FY 2004 Finance Plan.

$318 Million in Finance Plan Revenues Are Uncertain
PRHTA’s FY 2003 Finance Plan forecasts billions in revenues from gas taxes,
license fees, toll revenues, investment income, Federal funds, long- and short-term
bonds, and a line-of-credit. However, $318 million (in 2003 present value terms)
of these future revenues is uncertain. These questionable revenues consist of an
assumed increase in petroleum taxes between FY 2008 and FY 2022 that would
require a change in the tax law enacted by the Puerto Rico Legislature and
approved by the Governor. No such tax law change has been enacted.
On November 11, 2003, FTA’s financial management and oversight consultant also
reported to FTA on PRHTA’s May 2003 Finance Plan. FTA’s financial
management and oversight consultant also questioned some of PRHTA’s revenue
projections including this tax increase. The report stated that PRHTA’s revenue
projections were optimistic in the near term, and in some cases, uncommitted in the
long term.

The Project’s $2.25 Billion Cost Estimate Will Likely Increase Further
Based on PRHTA’s cost estimate, the project is anticipated to cost $2.25 billion,
which is almost double its original price tag. However, this cost will likely
increase further due to the demands and challenges that are expected to be placed
on the project’s contingency reserve. As of May 2004, PRHTA reported the
project’s contingency reserve as approximately $50 million. This contingency
may not be sufficient to cover existing and future claims against the project for the
following reasons:




30
      Again, we used a range of inflation assumptions to generate the cost stream to be discounted. Using an average of
     inflation over the last 5 years produced an estimate of $1.304 billion. Using an average of inflation over the last 10
     years or the assumption that inflation would continue to replicate the pattern it has exhibited over the last 10 years
     resulted in estimates of $1.269 billion and $1.286 billion, respectively, for the present value of this omitted cost.
     Again, we chose the most conservative estimate. Also, note that although the plan covers 20 years, the operating
     costs start at project completion, which HTA estimates as December 2004. Therefore, these figures represent 19
     years of omitted operating costs.
                                                                                                             22


       • There are $82.7 million in outstanding claims on five of the seven
         alignment section contracts.31 In addition, any future claims that may be
         submitted would also place demands on the contingency.

       • A $50 million lawsuit submitted by Siemens against the project as
         compensation for denied change orders would also challenge the
         contingency should the Court find in Siemens favor.

       • Any additional costs that PRHTA may incur to resolve the outstanding
         safety and performance issues mentioned earlier, and any costs associated
         with the project completion date slipping beyond the formerly approved
         June 2004 opening may also place demands on the contingency reserve.


FTA Needs to Designate PRHTA a “High-Risk” Grantee
FTA should designate PRHTA a “high-risk” grantee under C.F.R. 49 §18.12. This
designation is given to grantees that have a history of unsatisfactory performance,
are not financially stable, or have not met the terms and conditions of previous
grant awards. Our audit disclosed that PRHTA currently demonstrates all three of
these conditions. For example, PRHTA has not resolved a substantial number of
construction quality issues on the Tren Urbano project and it has identified recent
cash shortages. Further, PRHTA has not complied with the FFGA requirement to
use fair cost estimates in settling construction change orders.
For these reasons, FTA should designate PRHTA as a “high-risk” grantee so that
increased oversight is provided to Tren Urbano and other grant awards. Doing so
will also require that FTA sets specific conditions for future grant awards to ensure
that PRHTA exercises greater accountability over Federal funds received and other
grant awards.

RECOMMENDATIONS
We recommend that the Federal Transit Administrator:

1. Ensure all 77 safety-critical requirements are met and the level of performance
   that justified Federal participation in the project is achieved before approving
   an FFGA amendment.
2. Require PRHTA to provide a full accounting of the payment transactions on
   the 377 irregular change orders, including the amount of billings submitted to
   FTA for reimbursement and the amount of Federal reimbursements made.

31
     The alignment sections contracts are Systems and Test Track Turnkey (Siemens), Bayamon, Centro Medico, Villa
     Navarez, and Hato Rey.
                                                                                  23


   FTA should ensure that only eligible and reasonable billings supported by fair
   cost estimates have been reimbursed. Where reimbursements were made to
   PRHTA for ineligible change orders, FTA should ensure the appropriate
   credits or withholdings are applied.

3. Not award any additional Federal Highway flex and FTA formula funds for
   this project unless and until an amendment to the Full Funding Grant
   Agreement is approved and signed by FTA, and it determines that PRHTA has
   provided adequate documentation to demonstrate that the project expenses to
   which the funds would apply are eligible for Federal reimbursement.

4. Not approve PRHTA’s FY 2004 Finance Plan until it ensures that the plan
   appropriately reflects all Tren Urbano capital and operating costs, PRHTA
   expenditures, and revenue sources. Our review of the FY 2003 Finance Plan
   identified large overstatements of revenue and understatements of expenses.

5. Designate PRHTA a “high-risk” grantee based on PRHTA’s unsatisfactory
   management of Tren Urbano, Finance Plan and cash flow deficiencies, and
   failure to comply with the FFGA requirements to use fair cost estimates. This
   will ensure that increased oversight is provided the Tren Urbano project. FTA
   should also set specific conditions on any release of future grants to ensure that
   PRHTA exercises greater accountability over the Federal funds it receives.


AGENCY RESPONSE AND OFFICE OF INSPECTOR GENERAL
COMMENTS


In its September 28, 2004 response to the draft report (see Appendix), FTA
generally agreed with the findings and recommendations in the report stating it
would continue to closely oversee the project and would not amend the project’s
FFGA until it was satisfied that PRHTA had taken action to fully implement these
recommendations.      More specifically, FTA states that by no later than
January 15, 2004 it will:

   • require that the safety critical non-conformance reports are addressed
     satisfactorily before an amendment to the Full Funding Grant Agreement is
     signed. Further, FTA will not permit the Tren Urbano system to carry
     passengers until all safety-related issues are satisfactorily addressed.

   • require PRHTA to: (1) provide additional documentation that demonstrates
     that all Federal funds awarded have been used to appropriately reimburse
                                                                                24


      only eligible project expenses; and (2) produce the necessary
      documentation for each change order, permitting FTA to evaluate the
      eligibility of each change order for Federal participation.

   • not award any additional Federal highway flex or FTA formula funds for
     this project unless and until an amendment to the Full Funding Grant
     Agreement is approved and signed by FTA, and FTA determines that
     PRHTA has provided adequate documentation to demonstrate that the
     project expenses to which the funds would apply are eligible for Federal
     reimbursement.

   • not approve PRHTA’s FY 2004 Finance Plan until the plan appropriately
     reflects all Tren Urbano capital and operating costs, PRHTA expenditures,
     and revenue sources. FTA will undertake a review of an amendment
     application for this project only when the PRHTA has satisfactorily
     addressed any issues that result from FTA’s review of PRHTA’s August
     2004 Project Finance Plan.

   • FTA will designate PRHTA a “high-risk” grantee consistent with 49 C.F.R.
     §18.12.

In addition, FTA’s comments describe actions it has taken as well as provide an
update of recent activities on the project. FTA’s comments and proposed actions
are responsive to our recommendations and are subject to follow-up requirements
in DOT Order 8000.1C.


We appreciate the courtesies and cooperation of the Federal Transit Administration
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1992 or Debra Ritt, Assistant Inspector General for
Surface and Maritime Programs, at (202) 366-5630.
                                          #

cc: Deputy Secretary
    Assistant Secretary for Budget
      And Programs/Chief Financial Officer
                                                                                  25




EXHIBIT A. OBJECTIVES, SCOPE, AND
METHODOLOGY
The objective of this audit was to determine whether our March 2002
recommendations had been fully addressed before FTA approved PRHTA’s
May 2003 request to amend Tren Urbano’s FFGA. In 2002, we recommended that
FTA neither amend the project's FFGA nor accept the updated Finance Plan until
PRHTA submits a realistic project schedule, cost estimate, and timetable to resolve
significant construction quality problems.

Specifically, our current audit objectives were to determine whether (1) Tren
Urbano’s schedule was achievable, (2) Tren Urbano’s cost estimate was reliable,
(3) PRHTA had the financial capacity to complete Tren Urbano, and (4) Tren
Urbano’s outstanding construction quality problems were corrected. We also
looked for fraud, waste, and abuse on the project.

To determine Tren Urbano’s schedule viability and resolution of construction
quality problems, we met with PRHTA staff, FTA’s PMOC and the General
Management Architectural Engineering Consultant. The OIG engineer also
reviewed the following:

   § The PMOC’s assessment of the current project schedule to identify
     potential schedule risks.

   § Technical assessment reports prepared by the project and its contractor,
     Hansen and Wilson (the contractor hired by PRHTA to conduct
     independent analyses), which documented construction quality and safety
     issues impacting the project schedule.

   § A draft of the Management Action Plan developed by PRHTA to assess
     actions planned for resolving construction quality and safety issues.

We made several site visits to the project to observe construction quality and
safety issues reported by PRHTA. We discussed the impact of these issues with
Siemens, the project contractor responsible for the majority of the construction
quality and safety issues.     We also reviewed FTA’s policy and FFGA
requirements involving the safety certification process to determine the
reasonableness of the June 2004 scheduled revenue operations date.

In assessing the reliability of the project’s cost estimate, we analyzed budget data,
contractor change request logs, and FTA PMOC reports. We conducted limited


Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                               26


tests of computer-generated cost data from PRHTA and FTA, but did not assess
the general and application controls for each automated system. For example, we
reviewed the change order process, and selected a judgmental sample of
17 executed change orders. We compared the computerized logs to source
documents from project files. We also met with project managers and engineers to
determine how they developed the project cost estimate, what the supporting
assumptions were, and how construction quality problems and schedule delays
would affect the project’s cost.

Finally, to determine whether PRHTA has the financial capacity to complete Tren
Urbano, we reviewed PRHTA’s May 2003 Finance Plan and earlier finance plans,
financial management oversight reports, construction improvement program
planning documents, audited financial statements, Transportation Infrastructure
Finance and Innovation Act loan records, official statements for past bond issues,
the preliminary official statement for the 2002 bond issue, and various legal
documents.

We conducted limited tests of pledged revenue and capital and operating expenses.
Specifically, we analyzed pledged revenue data presented in the Ernst and Young
LLP, “Audited Financial Statements for the Puerto Rico Highway and
Transportation Authority,” for FYs 1993 through 2002 and the March 2003
“Analysis of the Revenues of the Highway Authority,” prepared by Applied
Research, Inc. Our analysis included a review of the following:

   • Gasoline taxes, gasoline oil and diesel oil taxes, petroleum taxes, vehicle
     license fees provided by the Puerto Rico Treasury Department, and toll
     revenue data provided by Banco Popular.

   • FY 2002 pledged revenue estimates that were reported in PRHTA’s
     Construction Improvement Program for FYs 2002 through 2005.

   • PRHTA long-term bond and line-of-credit issuance transactions and
     interest expense figures, including PRHTA’s inflation assumptions
     underlying capitalized expenses.

   • PRHTA’s preliminary official statement for its 2002 and 2003 bond
     prospectus. We reviewed Solomon/Smith Barney, Moody, and Standard
     and Poor reports, and interviewed officials of the Government
     Development Bank for Puerto Rico to verify the amount of bonds PRHTA
     would qualify for to finance its transportation infrastructure programs.

In analyzing PRHTA’s capital and operating expenses, we reviewed Tren Urbano
financing costs reported in the May 2003 Finance Plan and operating expenses for

Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                                27


a bus feeder system. We also analyzed inflation assumptions for all of PRHTA’s
capitalized expenditures. We computed inflation costs based on net present values
and compared them to amounts reported in the Finance Plan. In order to derive
the net present values, we first used an inflation rate to generate the stream of
expenditures to be discounted. We derived our estimates using three different
inflation assumptions: (1) an average of inflation rates for the last 5 years, 3.52
percent; (2) an average of inflation rates for the last 10 years, 3.19 percent; and
(3) that inflation rates would continue to repeat the pattern they have followed
over the last 10 years.

During the course of the audit, we were made aware of possible fraud, waste, and
abuse concerning the project’s change orders. We referred these issues to the OIG
investigators.

Our audit was conducted at the Tren Urbano Project Office and PRHTA
headquarters in Puerto Rico; FTA and Federal Highway Administration
headquarters in Washington, D.C.; FTA Region IV in Atlanta, Georgia; and FHWA
Division Office in Puerto Rico. We conducted our work from October 2002 to
July 2004 in accordance with the Government Auditing Standards as prescribed by
the Comptroller General of the United States and included tests of internal controls
as were considered necessary.




Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                               28




EXHIBIT B. PRIOR AUDIT COVERAGE
We have issued two prior reports on Tren Urbano. In these reports, we identified
problems with the project’s schedule, cost, and construction quality.

   • OIG Report Number RT-2000-091, “Report on the Finance Plan for the
     Tren Urbano Rail Transit Project,” May 25, 2000. The OIG reported that
     (1) the project was experiencing construction quality and schedule
     problems, (2) Tren Urbano lacked an integrated master schedule, and (3)
     the project may experience construction delays that could be as much as
     2 years beyond the original revenue operation date. We recommended that
     FTA ensure that PRHTA develops an integrated master schedule for Tren
     Urbano.

   • OIG Report Number IN-2002-085, “Report on the Tren Urbano Rail
     Transit Project,” March 5, 2002. The OIG reported that (1) the scheduled
     completion date of September 2003 was unlikely to be achieved due to the
     slow progress and interruptions in installing Tren Urbano’s track work, (2)
     the cost to complete Tren Urbano was likely to increase beyond PRHTA’s
     current estimate of $2.036 billion if the September 2003 completion date
     was not met, (3) the project’s cost increases and schedule delays had
     adversely affected PRHTA’s ability to fund planned transportation
     improvements, and (4) the long-term safety and operability of the project
     would remain at risk until PRHTA corrected all construction quality
     problems.

      We recommended that FTA neither amend Tren Urbano’s FFGA, nor
      accept or approve the updated Finance Plan until it is satisfied that PRHTA
      has: (1) revised the project's master schedule to reflect attainable project
      milestones, (2) submitted a cost estimate consistent with a supportable
      project completion date, and (3) established and adhered to a timetable to
      resolve significant construction quality problems.




Exhibit B. Pri or Audit Coverage
                                                                                   29




EXHIBIT C. PROJECT DESCRIPTION

Tren Urbano is the first electrified rail transit system for Puerto Rico and consists
of a 10.7-mile, L-shaped alignment with 16 stations located between the Bayamón
and Santurce communities in the municipality of San Juan (see Figure below).

        Figure. Map of the Tren Urbano Rail Transit Project
          in the San Juan, Puerto Rico, Metropolitan Area




This heavy rail system will operate along a fixed guideway that is predominately
elevated, with a 1.1-mile (2 km.) tunnel in the Río Piedras district. The system
will have a fleet of 74 rail cars and one maintenance and storage facility.

PRHTA officials are using a modified innovative procurement technique, known
as the design/build method, to construct the transit stations and six separate
sections of the Tren Urbano alignment. The project also includes a Systems and
Test Track Turnkey contract, with Siemens, to design and build a seventh
alignment section and to provide and operate rail transit cars and all track, traction
power, and train control systems. The Systems and Test Track Turnkey contract
includes the design and construction of an alignment section with two stations, a
maintenance facility, operations control center, and storage yards for the rail cars.


Exhibit C. Pr oject Description
                                                                                                 30


The other six contracts cover the design and construction of the remaining stations
and alignment sections. The table below provides a description of each alignment
section contract, its estimated cost, and percent of contract dollars expended.

Table. Cost of Alignment Section Contracts for the Tren Urbano
            Rail Transit Project as of June 30, 2004
                          ($ in millions)

                               Original                     Alignment           Percent of
     Alignment Section         Contract    Forecast at    Section Length      Contract Dollars
         Contract               Award      Completion         (miles)           Expended
  Bayamón                       $68.3         $106.7            1.8                 99.99
  Río Bayamón                   $36.7          $52.5            1.1                100.00
  Torrimar/Las Lomas
  Systems and Test
  Track Turnkey                $554.2         $771.9            1.7                 97.60

  Villa Nevárez                 $71.5         $106.6             1.2                99.70


  Centro Médico                 $71.5         $108.8            1.6                 99.90

  Río Piedras                  $225.6         $317.0            1.1                 99.90
  Hato Rey                      $117.4        $226.2             2.2                99.00
  Source: Tren Urbano Project Design and Construction Contracts Summary June 30, 2004 and
          OIG Report Number IN-2002-085, “Report on the Tren Urbano Rail Transit Project,”
          March 5, 2002.




Exhibit C. Pr oject Description
                                                                          31




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Debra Ritt                            Assistant Inspector General for
                                         Surface and Maritime
                                         Programs
  Kurt Hyde                             Deputy Assistant Inspector
                                         General for Surface and
                                         Maritime Programs

  Sarah Batipps                         Program Director
  Oleg Michalowskij                     Senior Auditor
  Laurence Burke                        Senior Analyst
  Rosa Scalice                          Auditor
  Kenneth Vought                        Systems Engineer
  Rodolfo Pérez                         Engineer Advisor
  Betty Krier                           Economist




Exhibit D. Major Contributors to This Report
                                 32




APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comment s
                                 33




Appendix. Management Comment s
                                 34




Appendix. Management Comment s
                                 35




Appendix. Management Comment s
                                 36




Appendix. Management Comment s
The following pages contain textual versions of the graphs and charts found in the
preceding document. These pages were not in the original document but have
been added here to accommodate screenreaders and other assistive technology.
                                 Figure 1 Number and Additional Cost of Change Orders Issued Above 15 Percent of Fair Cost Estimates
                                                                            ($ in Millions)

                    Year                           1997           1998           1999           2000           2001           2002          2003        2004

 Number of Change Orders > 15% of the Fair
                                                           3              3             14             28             42               61          16           0
              Cost Estimate

Additional Cost of Change Orders > 15% of Fair
                                                 $1,364,502     $3,826,447      $1,679,868     $1,328,186     $2,303,308     $4,420,787     $385,442           $0
                 Cost Estimate
